No. 20-1284
In the

Supreme Court of the United States
________________

WARSAW ORTHOPEDIC, INC., MEDTRONIC, INC.,
MEDTRONIC SOFAMOR DANEK, INC.,
v.

Petitioners,

RICK C. SASSO, M.D.,
________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
________________
REPLY BRIEF FOR PETITIONERS
________________
PAUL D. CLEMENT
Counsel of Record
JOHN C. O’QUINN
C. HARKER RHODES IV
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners
May 28, 2021

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF ............................................................ 1
I.

The Federal Circuit Fundamentally Erred By
Simultaneously Finding Exclusive Federal
Jurisdiction And Abstaining In Favor Of
Ongoing State-Court Proceedings ...................... 1
A. The Decision Below Cannot Be
Reconciled With Wilton and Brillhart,
Colorado River, or the Basic Notion of
Exclusive Federal Jurisdiction .................... 2
B. There Is No Good Reason to Leave the
Federal Circuit’s Error Uncorrected ............ 5

II. The Consequences Of The Decision Below
Warrant Further Review .................................. 12
CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Cases
Am. Energy Corp. v. Rockies
Express Pipeline LLC,
622 F.3d 602 (6th Cir. 2010).................................... 4
Brillhart v. Excess Ins. Co. of Am.,
316 U.S. 491 (1942).............................................. 2, 3
Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800 (1988).................................................. 5
Colorado River Water Conservation
Dist. v. United States,
424 U.S. 800 (1976).................................................. 2
Sinochem Int’l Co. v. Malaysia
Int’l Shipping Corp.,
549 U.S. 422 (2007).................................................. 5
Wilton v. Seven Falls Co.,
515 U.S. 277 (1995).............................................. 2, 3
Statute
28 U.S.C. §1338 .......................................................... 4

REPLY BRIEF
The Federal Circuit in the decision below first
recognized that Medtronic’s declaratory judgment
action implicated the federal courts’ exclusive
jurisdiction over patent disputes, and then permitted
abstention in deference to ongoing state-court
proceedings involving mirror-image claims. That
makes no sense. Exclusive means exclusive, and thus
state-court proceedings addressing the same claims
are ultra vires. Declining to exercise exclusive federal
jurisdiction to allow ultra vires state-court
proceedings to run their course is incoherent and
would ultimately increase this Court’s workload.
Sasso cannot make sense of the Federal Circuit’s
fundamentally contradictory decision and does not
even try. Nor does Sasso identify any other case, in
the entire history of the federal courts, in which a
federal court with exclusive jurisdiction abstained in
favor of a competing state-court proceeding. The
decision below is at war with the basic notion of
exclusive federal jurisdiction. This Court should grant
certiorari and reverse.
I.

The Federal Circuit Fundamentally Erred
By Simultaneously Finding Exclusive
Federal Jurisdiction And Abstaining In
Favor Of Ongoing State-Court Proceedings.

The Federal Circuit fundamentally erred by
abstaining from exercising its exclusive federal
jurisdiction out of deference to a state-court
proceeding with no jurisdiction. That result cannot be
squared with this Court’s precedents or with the very
meaning of exclusive jurisdiction.

2
A. The
Decision
Below
Cannot
Be
Reconciled With Wilton and Brillhart,
Colorado River, or the Basic Notion of
Exclusive Federal Jurisdiction.
The Federal Circuit’s decision defies both
precedent and common sense. Indeed, it squarely
contravenes the very precedents on which it primarily
relies. Pet.20-25. Wilton and Brillhart make crystal
clear that while a district court enjoys substantial
discretion in deciding whether to hear a declaratory
judgment action, it cannot exercise that discretion to
abstain in favor of an alternative forum that cannot
resolve the parties’ claims. Instead, the relevant
question is whether the dispute “can better be settled
in the proceeding pending in the state court.’” Wilton
v. Seven Falls Co., 515 U.S. 277, 282 (1995) (quoting
Brillhart v. Excess Ins. Co. of Am., 316 U.S. 491, 495
(1942)). Where (as here) the federal courts have
exclusive jurisdiction over the claims at issue, those
claims obviously cannot “better be settled” in a state
courts that by definition lack jurisdiction to settle
them at all. Id.; see Pet.20-25.
That anomalous result embraced below is
likewise foreclosed by Colorado River and its progeny.
Pet.26-29.
Colorado River explicitly notes that
abstention in favor of pending state-court proceedings
“clearly would have been inappropriate if the state
court had no jurisdiction,” and this Court’s subsequent
decisions reiterate that point. Colorado River Water
Conservation Dist. v. United States, 424 U.S. 800, 809
(1976); see Pet.27-28.
Four circuits have thus
expressly held that under Colorado River, a federal
court with exclusive jurisdiction cannot properly

3
abstain in favor of concurrent state-court proceedings.
Pet.28. Even the Federal Circuit itself recognized that
rule in the Colorado River context, Pet.App.12—but
then deemed it inapplicable in the Wilton/Brillhart
context, despite the latter decisions’ explicit focus on
whether the claims at issue can better be settled in the
pending state proceeding. Pet.29. Thus, the decision
contradicts this Court’s precedents and the
recognition of at least four circuits that exclusive
means exclusive.
Sasso has no response. He does not even try to
explain how Wilton and Brillhart could permit federal
courts with exclusive jurisdiction to abstain in favor of
a state court without jurisdiction. Sasso likewise
makes no attempt to explain how the decision below
can be reconciled with the explicit recognition in
Colorado River and its progeny that abstaining in
favor of a court without jurisdiction is nonsensical; in
fact, his brief does not discuss or even cite Colorado
River at all.
Instead, Sasso emphasizes that district courts
have significant discretion under the Declaratory
Judgment Act, and can abstain even in cases within
their exclusive jurisdiction. BIO.13-14. That is
undisputed. But while federal courts have discretion
to abstain from issuing declaratory judgments for
many reasons—from ripeness to mootness and
prudential considerations in between—deference to
ongoing state proceedings that cannot resolve the
parties’ dispute is not among them. Pet.23-24; see
Wilton, 585 U.S. at 282-83; Brillhart, 316 U.S. at 49496.
Under any species of abstention doctrine,
abstention by a court with exclusive jurisdiction in

4
deference to a court without proper jurisdiction is both
incoherent and improper.
Sasso’s argument that the decision below does not
conflict with other lower-court decisions is mystifying.
BIO.14-18. Every other court to consider this issue has
declined to abstain from hearing a declaratory
judgment action within its exclusive jurisdiction
because of a competing state-court proceeding. Pet.25;
see Pet.28-29. Sasso has no response. With the entire
corpus of federal-court decisions to draw from, he does
not cite a single counter-example. The reason is
simple:
The very nature of exclusive federal
jurisdiction makes abstention in deference to ongoing
state-court proceedings nonsensical.
Indeed, the
inevitable consequence of the Federal Circuit’s
doctrine is to shift responsibility to this Court to
vindicate exclusive federal jurisdiction by reviewing
ultra vires state-court proceedings.
The Federal Circuit’s decision also defies
Congress’ basic judgment in placing some disputes
within the federal courts’ exclusive jurisdiction. Put
simply, “[e]xclusive means exclusive.” Am. Energy
Corp. v. Rockies Express Pipeline LLC, 622 F.3d 602,
605 (6th Cir. 2010) (Sutton, J.). Where Congress has
chosen to grant the federal courts exclusive
jurisdiction, abstaining from exercising that exclusive
jurisdiction in favor of a state court that Congress has
deprived of such jurisdiction necessarily contravenes
Congress’ considered judgment. Pet.29-30. That is
especially true in the patent context, where Congress
was doubly clear in denying state courts jurisdiction
to hear any claim arising under federal patent law. 28
U.S.C. §1338(a). Whatever grounds a district court

5
may have for abstaining from exercising its exclusive
jurisdiction, it cannot be to yield to state-court patent
proceedings. Once again, Sasso has no response.
B. There Is No Good Reason to Leave the
Federal Circuit’s Error Uncorrected.
1. Instead of squarely defending the Federal
Circuit’s decision, Sasso mischaracterizes it. Initially,
he is flat wrong to suggest that the Federal Circuit’s
explicit jurisdictional holding was “dicta.” BIO.19
(citing Sinochem Int’l Co. v. Malaysia Int’l Shipping
Corp., 549 U.S. 422 (2007)). On the contrary, as the
Federal Circuit explained, its jurisdictional analysis
was strictly necessary—not only to the district court’s
jurisdiction, but to its own appellate jurisdiction.
Pet.App.9-10 & n.4.
Without that exclusivejurisdiction holding, the Federal Circuit would have
been required to dismiss or transfer the appeal to the
Seventh Circuit—as Sasso himself requested.
Pet.App.9. Sasso entirely ignores that the Federal
Circuit’s exclusive jurisdiction finding was necessary
to its appellate jurisdiction. Thus, neither the Federal
Circuit’s exclusive-jurisdiction determination nor its
misguided abstention ruling can be dismissed as dicta.
See
Cross-BIO.16-18
(debunking
Sasso’s
“jurisdictional dicta” argument).
2. Sasso next notes that the Federal Circuit
properly relied on Medtronic’s complaint to find the
claims here subject to exclusive federal jurisdiction.
BIO.20 (citing Christianson v. Colt Indus. Operating
Corp., 486 U.S. 800 (1988)). Quite so. The error in the
Federal Circuit’s decision came in the next step—
when it held that despite that exclusive federal
jurisdiction, the district court could nevertheless

6
abstain in favor of competing mirror-image state-court
proceedings. Pet.16-33. Nothing in that holding is
justified by Christianson. On the contrary, the
Federal Circuit’s error here is simply the converse of
its error in Christianson: rather than (as in
Christianson) finding it lacked jurisdiction but
proceeding to adjudicate the merits, it found exclusive
federal jurisdiction but declined to adjudicate the
merits in deference to a court without jurisdiction.
Pet.31-32. Both results are equally wrong and both
engender jurisdictional conundrums that require this
Court’s intervention.
3. Rather than defending the Federal Circuit’s
flawed reasoning, Sasso proceeds to try defending the
district court’s reasoning instead. That misdirection
leaves the Federal Circuit’s precedential opinion
undefended and fails on its own terms.
a. Sasso argues that the district court’s decision
“was based in part on timing,” and the district court
properly abstained because Medtronic “filed its
declaratory judgment action late.” BIO.21. Not so.
First, nothing in the district court’s decision turned on
the timing of Medtronic’s complaint (which is why
Sasso never cites the district court’s opinion in making
his “timing” argument). On the contrary, the district
court made clear it was not “abstaining because one
party won a race to the courthouse.” Pet.App.25 n.5.
Nor can Sasso claim that Medtronic’s complaint was
time-barred; he argues only that it was late as
compared to the state litigation. BIO.21-22. But there
is no good time to abstain in favor of a state court
without jurisdiction. No matter how far along those
ultra vires proceedings are when the federal court

7
recognizes its exclusive jurisdiction over the mirrorimage dispute, deferring to proceedings that lack
proper jurisdiction remains nonsensical. Worse yet,
deferring to state-court proceedings that the federal
court recognizes implicate exclusive federal
jurisdiction essentially forces this Court’s hand, as it
is then the only federal court that can correct the ultra
vires state-court proceedings. Although the state
courts handling mirror-image claims could still ignore
a federal-court decision finding exclusive jurisdiction
and exercising it, a federal-court decision to abstain
despite an exclusive-jurisdiction determination
virtually guarantees that the state courts will forge
ahead and leave this Court as the only federal court
able to intervene, as this case well illustrates. Thus,
in addition to being incoherent, the decisions below
improperly shift the lower courts’ workload to this
Court.
b. Sasso next asserts that the district court
properly abstained because Medtronic’s complaint
served “no legitimate purpose.” BIO.23-25. That is
question-begging.
The legitimate purpose of
Medtronic’s complaint is obvious: to obtain a definitive
ruling on the issues of validity and claim scope
presented here from the only courts authorized by
Congress to resolve those issues, namely the federal
courts. See Pet.8-9. If the district court had held
(instead of just assuming) that only federal courts had
jurisdiction over this action and its mirror-image
state-court counterpart, then it should have been
obvious that only the state-court proceedings lacked a
legitimate purpose.

8
c. Abandoning the district court’s reasoning (not
to mention the Federal Circuit’s), Sasso argues that
abstention was proper because the declaratory relief
Medtronic requested “was irrelevant to the state court
dispute.” BIO.25-26. That misguided argument is
flatly inconsistent with the whole premise of the
district court’s abstention ruling. If Medtronic’s
complaint were “irrelevant” to the state-court action,
there would be no conceivable reason to abstain from
deciding Medtronic’s complaint in deference to the
state proceedings. The district court’s decision is
premised on the opposite view—that because
Medtronic’s complaint presented the “mirror image” of
Sasso’s state-court claims, Pet.App.19, as even Sasso
emphasized below, see Sasso.C.A.Br.28, the federal
court would abstain in favor of ongoing state-court
proceedings covering the same ground.
Sasso nevertheless repeatedly insists that the
patent issues of validity and claim scope were
irrelevant in the state-court action, because the
Indiana courts held Sasso could recover without
prevailing on those issues. BIO.25-26; see BIO.11-12,
15, 20, 22-23. In particular, Sasso asserts, the
language in the Facet Screw Agreement setting a flat
2.5% royalty “without regard to patent coverage”
eliminated the issues of patent validity and scope.
BIO.11-12. But if that were true (and it is not), then
the district court would have never abstained, because
that would mean that it—and only it—had those
federal-law issues before it. To the extent Sasso’s
(confused and confusing) argument is that those
federal-law issues were not “necessarily raised,” the
Federal Circuit squarely disagreed, holding instead
that the issues of validity and scope were indeed

9
“necessarily raised” by the parties’ controversy,
precisely because the term of the royalty agreement
(wholly apart from the royalty rate) depended on
whether any patent issued with valid claim coverage
of the devices involved. Pet.App.3, 6-8, 9-10. The
Federal Circuit’s holding that the controversy
necessarily raised patent issues is hardly surprising,
given that, despite the state-court rulings Sasso
highlights, the state proceedings did in fact devolve
into a state-court patent trial. See Pet.7-11. In any
event, Sasso’s suggestion that the “mirror image”
claims raised in the federal and state proceedings
somehow deviated just because the federal and state
courts viewed them differently for purposes of the
Gunn analysis, BIO.25-26, is both wholly unsupported
and wholly untenable.
d. Sasso next raises another contention that
featured in neither the Federal Circuit’s nor the
district court’s reasoning, contending that Medtronic’s
complaint was inconsistent with its past performance
under the parties’ contract. BIO.26-27. That is a
(weak) merits argument, not an argument for
abstention—which is why neither court below adopted
it.
e. Sasso concludes with several pages of argument
that the parties’ controversy here was not really a
patent case, and so the state court properly exercised
jurisdiction. BIO.27-30. The district court, however,
never reached that issue, and the Federal Circuit
squarely rejected Sasso’s view. Pet.App.9-10, 20-21.
That is for good reason: Sasso’s attempt to paint this
case and its state-court mirror-image as anything but
patent cases blinks reality.
Sasso does not

10
meaningfully dispute that the state proceedings
involved substantial discovery on patent issues; that
his experts offered detailed opinions on claim
coverage; that the state court issued a Markman-type
order construing disputed terms in the patent claims;
that Sasso and his experts testified at trial on patentlaw questions including the scope of the patent claims
here; and that the court proceeded to give the jury
detailed instructions on patent law and patent
coverage borrowed from the Federal Circuit Bar
Association pattern instructions. Pet.7-11. The record
simply belies any effort to portray this case as a runof-the-mill contract dispute with no significant patent
issues. 1
4. Finally, Sasso claims this case would be a poor
vehicle for reviewing “questions of patent law
jurisdiction.” BIO.30-32. But Medtronic’s petition
(unlike Sasso’s own cross-petition) does not raise any
“questions of patent law jurisdiction”; instead, it seeks
review of the Federal Circuit’s plainly erroneous

Sasso’s complaint that Medtronic drafted the Markman
order and submitted the patent-law jury instructions that the
state court delivered, BIO.28, misses the point entirely.
Medtronic made abundantly clear throughout the state
proceedings that it objected to the state court’s improper exercise
of jurisdiction over a patent case, see Pet.6-7, and will be seeking
certiorari on that issue now that the Indiana proceedings have
concluded. Having had its objection to proceeding in state court
rejected, Medtronic was not required to unilaterally disarm. In
all events, what matters is not which side proposed patent-law
instructions but that the state court gave them because they were
entirely relevant to the patent trial (improperly) unfolding in
state court.
1

11
abstention holding. That issue—i.e., the question
presented—is clearly and cleanly presented here.
To be sure, the Indiana courts in the “mirror
image” case reached the opposite conclusion in
applying the Gunn factors, in open conflict with the
Federal Circuit’s jurisdictional analysis here, and
Medtronic plans to file a petition for certiorari in the
Indiana case squarely raising the proper analysis of
the Gunn factors in this context. But the proper
vehicle for resolving that question, and providing
clarity to state courts improperly exercising
jurisdiction over patent suits, is a state-court case in
which non-existent jurisdiction has been improperly
exercised. The problem here, by contrast, is very
nearly the opposite:
federal courts correctly
recognizing but then declining to exercise their
exclusive federal jurisdiction. The Federal Circuit’s
correct jurisdictional analysis here only underscores
the incoherence of its abstention holding.
In any event, Sasso’s purported vehicle problems
are baseless. Sasso complains that the state action
presents “complex” jurisdictional questions, because
(he claims) Medtronic “shift[ed] its case theory” in
state court. BIO.30-31. Not so. In fact, as the very
page of the record Sasso cites shows, Medtronic has
consistently maintained that Sasso’s claims
necessarily raise issues of patent validity and claim
scope (which doom Sasso’s claims); it just so happens
that they also fail on state-law grounds. C.A.App.967;
see BIO.2-3. The availability of an independent statelaw defense is no basis for finding a claim is not
substantially federal in nature. In any event, any
complaints Sasso may have about how the state action

12
was litigated hardly create a vehicle problem for this
federal case. Although the two cases are mirror
images with respect to the patent issues, the
abstention issue arises only in the federal case.
II. The Consequences Of The Decision Below
Warrant Further Review.
The Federal Circuit’s precedential decision is not
only wrong, but risks serious and widespread
consequences that warrant immediate review—a fact
that Sasso makes no serious attempt to deny. Pet.3334. As a doctrinal matter, the decision introduces
confusion and disuniformity into what was previously
settled law. Pet.33; see Pet.20-29. And as a practical
matter, the decision below invites both federal
abdication and state encroachment in areas, like
patent law, that Congress deliberately reserved for
exclusive federal adjudication.
Worse still, the
decision below improperly shifts the workload of
ensuring that state courts do not impermissibly
exercise exclusive federal jurisdiction to this Court.
When a decision recognizes that federal courts have
exclusive jurisdiction over a dispute, only to abstain in
deference to state proceedings that are by definition
ultra vires, there are only two possible outcomes:
either that ultra vires state-court action will go
entirely unremedied or this Court will be forced to
intervene. If, by contrast, a federal court not only
recognizes its exclusive jurisdiction, but exercises it,
there is a realistic chance that the state courts will
take heed. While there is no guarantee that a state
court will yield when exclusive federal jurisdiction is
exercised, a federal decision abstaining despite
recognizing exclusive federal jurisdiction all but

13
guarantees that state courts will proceed and create a
need for this Court’s intervention, as this case well
illustrates.
In sum, the decision below sets a dangerous
precedent that sends mixed signals to state courts and
creates unnecessary work for this Court. It also
disregards the basic nature of exclusive jurisdiction.
There is no reason for this Court to let this bad
precedent stand. This Court should grant review and
reverse, either summarily or after plenary review.
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
PAUL D. CLEMENT
Counsel of Record
JOHN C. O’QUINN
C. HARKER RHODES IV
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners
May 28, 2021

